PARA USO DEL VENDEDOR UNICAMENTE
La identificación del aplicante se verifico a través de la visualización de una licencia de conducir
vigente, a menos que una de las siguientes opciones este marcada: Vigente: ___ Tarjeta de
Identificación Emitida por el Estado ___ Pasaporte ___Tarjeta de Seguridad Social
La identificación del Co-aplicante se verifico a través de la visualización de una licencia de
conducir vigente a menos que una de las siguientes opciones este marcada: Vigente: ___ Tarjeta
de Identificación Emitida por el Estado ___ Pasaporte ___ Tarjeta de Seguridad Social
Verificado por: _________________________________________________________________
Número Del Distribuidor_______ Venta Inicial $_______________ Deposito Inicial$_____________
En este acuerdo “usted” y “su” se refiere a todas las personas que están aplicando por el
crédito y “nosotros”, “nos”, y “nuestro” se refiere al distribuidor y sus cesionarios.

APLICACION DE CREDITO DEL CLIENTE

INFORMACION DEL APLICANTE (Por favor escriba claramente)
Numero de dependientes
Marque si usted NO es Ciudadano Estadounidense
Número de Seguro Social
Fecha de Nacimiento
Correo Electrónico:
Primer Nombre

Segundo Nombre

Dirección donde reside (No PO Box es Permitido )
Ciudad

Estado

Apellido
Tiempo de vivir en esta residencia
Años
Meses
Código Postal

Propietario
Pago Mensual de la hipoteca
Valor de la Casa
Renta
$
$
Teléfono de casa
Numero de Celular
Teléfono del trabajo
/
/
/
/
/
/
Empleador Actual Ocupación
Salario Mensual Neto
Duración en el Empleo
$
Años
Mese
Manutención del cónyuge, pensión alimenticia o ingreso de mantenimiento por separación, no
necesita ser revelado si usted no desea que se considere como base para saldar esta deuda.
Otro Ingreso
Fuente de Ingreso
Cantidad Mensual
$
$
REFERENCIA PERSONAL (Que no viva con Usted)
Nombre
Parentesco

Número de Teléfono
/
/
INFORMACION DEL CO-APLICANTE (Para aplicaciones mancomunadas solamente)
Numero de dependientes
Marque si Usted NO es ciudadano Estadounidense
Número de Seguro Social
Fecha de Nacimiento
Correo Electrónico:
Primer Nombre

Segundo Nombre

Ciudad
Teléfono de casa
/
/
Empleador Actual Ocupación

Estado

Tiempo de vivir en esta residencia
Años
Meses
Código Postal

Fecha

/

/

/
/
Fecha de Vencimiento
/
/
Firma del Aplicante Mancomunado
Fecha
/
/
No. de Licencia del Aplicante Mancomunado Estado
Fecha de Vencimiento
/
/
AVISO PARA LOS APLICANTES EN WISCONSIN: Ninguna disposición de un acuerdo de bienes
matrimoniales, declaración unilateral bajo los Estatutos de Wis. § 766.59, O decreto judicial en virtud de
los Estatutos de Wisconsin. § 766.70 afectan adversamente el interés del acreedor, a menos que se le
entregue al acreedor una copia del decreto, acuerdo, declaración, o tenga conocimiento fehaciente de la
disposición adversa antes de la fecha de concesión de crédito. Usted nos debe proporcionar el nombre de
su esposa/o y dirección de su cónyuge/ aplicante mancomunado en la sección arriba para que podamos
dar aviso de esta transacción de crédito por correo con una copia de esta aplicación. Si usted está
casado, usted acepta que esta obligación sea incurrida en el interés del matrimonio o familia.
Firma del Aplicante: _________________________________________________________________
AVISO DEL REPORTE DE CREDITO: Nosotros podremos solicitar un reporte de crédito para cualquier
propósito legítimo asociado con su aplicación para crédito, extensión de crédito, modificación de los términos de
su acuerdo de crédito, o cobranza en su cuenta. En su solicitud, le informaremos si el reporte ha sido ordenado
y le daremos el nombre y la dirección de la agencia de informes de crédito que proporciono el reporte.
AVISO: El decreto Federal para la Igualdad en la Oportunidad de Créditos, prohíbe a los acreedores discriminar
a los solicitantes de crédito en base de raza, color, religión, origen nacional, sexo, estado civil, edad (Siempre
y cuando el solicitante tenga la capacidad de entrar en un contrato obligatorio); o porque todo o parte de los
ingresos del solicitante deriva de algún programa de asistencia pública; o porque el aplicante ha ejercido de
buena fe algún derecho bajo la ley de Protección de Crédito al Consumidor. La agencia federal que administra
el cumplimiento de la ley respecto a este acreedor es la Comisión Federal de Comercio.
Residentes de Delaware: Los Cargos por servicio que no superan los permitidos por la ley se cobrarán
sobre los saldos pendientes de mes a mes.
Residentes de Maryland: Los cargos financieros se harán en cantidades o a tasas no superiores a los
permitidos por la ley.
Asignación: Aqua Finance, Inc. (“AFI”) debe adquirir su cuenta a resultado de su aplicación de crédito, AFI
además podrá asignar su transacción de crédito. Si su transacción de crédito es asignada a Connexus Credit
Union (“Connexus”) será requerido que usted se haga miembro de Connexus Credit Union. La membrecía se
concederá una vez usted se haga parte de la no lucrativo Asociación Connexus (“Asociación”), la 501(c)(3)
entidad establecida para llevar a cabo las donaciones caritativas dadas en todo los Estados Unidos. En ese
caso, y al firmar esta aplicación, usted está de acuerdo de unirse a Connexus y la Asociación, y los términos
de membresía en cada organización.
No. de Licencia del aplicante

Estado

ACUERDO DE AUTORIZACION PARA PAGO AUTOMATICO
Al firmar abajo, por la presente autorizo el inicio de una deducción periódica de mi cuenta de la institución
financiera nombrada a continuación a través del sistema ACH y autorizo a dicha institución a debitar mi
cuenta por la cantidad y en la frecuencia establecida a continuación. Reconozco que esta solicitud no
viola las disposiciones de la ley de los Estados Unidos que se aplica a las transacciones ACH. Entiendo
que tengo el derecho de detener el pago automático al notificar por escrito a la institución nombrada abajo
o a AFI; por lo menos tres (3) días hábiles antes del día en que mi cuenta está programada para ser
cargada y que pueda haber un cargo por ese servicio. Además estoy de acuerdo en que AFI requerirá
confirmación por escrito de la orden oral de suspensión de pago dentro de los catorce (14) días. Esta
será una suspensión de pago permanente del pago pre-autorizado. Puedo, sin embargo, establecer un
nuevo pago pre-autorizado de la misma institución financiera o empresa en el futuro. También autorizo las
entradas de ajustes en el caso de transacciones erróneas en mi cuenta. Estoy de acuerdo en mantener a
AFI libre de cualquier gasto, incluyendo cargos incurridos como resultado de su incapacidad a procesar un
retiro programado de pago pre- autorizado debido: Por haber dado datos incorrectos, este sea actuado en
una orden de suspensión de pago, o la existencia de fondos insuficientes en la cuenta que yo he indicado.
Pago Mensual_________________________
Día del mes para retirar el pago____________ El mes que el primer pago será retirado_________
Nombre del Banco ________________________________________________________________
Dirección del Banco_______________________________________________________________
Si no está l enado, usted está autorizado a deducir el monto de pago establecido en mi Recibo de Compra de Crédito Revolvente para la cuenta que aparece en mi cheque anulado.
IMPORTANTE: POR FAVOR ADJUNTE UN CHEQUE ANULADO CON LA NUMERACION CORRECTA
Tipo de Cuenta: Cheques Ahorros
Numero de Ruta del Banco ________________________________________________________
Número de Cuenta del Depositante _________________________________________________
X_____________________________________ X _______________________________________
Firma del Depositante
(Si es cuenta mancomunada, los dos tienen que firmar)
Me gustaría recibir mis estados de cuenta mensuales por correo electrónico y tener Acceso a hacer mi pago en línea.
AFI-500-RCA/SP 7-1-2016 240387

-------------

Numero de celular
Teléfono del Trabajo
/
/
/
/
Salario Mensual Neto
Duración en el Empleo
$
Años Meses
Manutención del cónyuge, pensión alimenticia o ingreso de mantenimiento por separación, no
necesita ser revelado si usted no desea que se considere como base para saldar esta deuda.
Otro Ingreso
Fuente de Ingreso
Cantidad Mensual
$
$
Al firmar esta aplicación: 1) Usted garantiza que toda la información que provee es verdadera y completa;
2) Usted autoriza al distribuidor a asignar esta aplicación a Aqua Finance, Inc. o sus cesionarios; 3) Usted
autoriza una investigación completa y liberación de cualquier registros de cualquier fuente incluyendo
reportes de la agencia de crédito para verificar que la información en esta aplicación es eficaz ; y 4) Usted
acepta recibir mensajes de línea automática de nosotros o de nuestros agentes, en su teléfono inalámbrico.
Usted tiene que mantenernos informados si alguna de la información en esta aplicación cambia. Al completar
y firmar esta aplicación usted comprende que a solicitando que nosotros abramos una cuenta de crédito
revolvente la cual le permite hacer compras a crédito en la cuenta como comprobado por un comprobante
de venta de crédito revolvente, y usted está de acuerdo con todos los términos y condiciones de este
Acuerdo de Crédito Revolvente. Por su firma usted reconoce que ha recibido y leído todos los términos de
este Acuerdo antes de hacer alguna compra en la cuenta. SI ESTA ES UNA CUENTA MANCOMUNADA
USTED ENTIENDE QUE CADA APLICANTE TIENE EL DERECHO DE USAR LA CUENTA DEL LIMITE
DE CREDITO Y QUE CO-APLICANTES SON CONJUNTAMENTE Y SEVERAMENTE RESPONSABLES
POR TODAS LAS COMPRAS EN LA CUENTA. Ver los Avisos de Estado para información importante
respecto a esta aplicación de crédito y del acuerdo. No existe ningún acuerdo entre usted y nosotros
hasta que esta aplicación es aprobada.

Firma del aplicante

Favor de desprender esta sección y entregarla al cliente.

Dirección donde reside (No PO Box es Permitido)

Apellido

NUMERO DE SEGURO SOCIAL/NUMERO DE IDENTIFICACION PARA PAGO DE IMPUESTO: Bajo
penalidades de perjurio, yo certifico que: 1)El número mostrado en la página 1 de esta aplicación de crédito
es mi número correcto de pago de impuesto (o estoy esperando por un numero que me será otorgado),
2) yo no estoy sujeto a la retención adicional de impuestos porque: (a) Yo estoy exento de la retención
adicional; o (b) Yo no he sido notificado por el Servicio de Impuestos Internos (IRS) que estoy sujeto a la
retención adicional como resultado de un fallo en reportar todos los intereses o dividendos; o (c) El IRS
me ha notificado que ya no estoy sujeto a la retención adicional; y 3) Yo soy una persona Estadounidense
(incluyendo residente de los Estados Unidos). Instrucciones de Certificación: Tache el punto 2 anterior si
Usted ha sido notificado por el IRS que actualmente está sujeto a retención, porque usted fallo en reportar
todos los intereses y dividendos en su declaración de impuestos. Tache el punto 3 y complete un formulario
W-8 BEN si reúne los requisitos y no es una persona de E.U.
El Servicio de Impuestos Internos no requiere de su consentimiento para cualquier provisión de este
documento más que la certificación requerida para evitar la retención adicional.
Su Pago Mínimo Mensual será entre 2% y 5% del balance del “Cargo Mensual más Alto” ya que el
balance de su cargo mensual fue de cero (menos cualquier planes de pago especiales) como será
demostrado en su estado de cuenta, redondeando al próximo dólar más alto o $15, lo que sea mayor.
Si usted es un participante en planes de promoción especificados, su pago mensual mínimo será entre el 1%
(Por los primeros 12 meses) y 2% (después) del “Cargo Mensual más Alto” del balance o $15, lo que sea mayor.
Un cargo financiero será calculado sobre el saldo pendiente cada mes.
NO FIRME ABAJO A MENOS QUE EL VENDEDOR LE HAYA PROVEIDO CON LAS DECLARACIONES
Y TERMINOS ADJUNTOS. POR SU FIRMA ABAJO, USTED RECONOCE QUE HA RECIBIDO EL
ACUERDO DEL CREDITO REVOLVENTE ADJUNTO.

- - - - - - - - - - - - - - - - - - - - - - - - Favor de desprender esta sección y entregarla al cliente. - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - -

CREDITO REVOLVENTE
Cada aplicante puede aplicar por un crédito individual o mancomunado sin tomar en cuenta su estado civil.
Esta aplicación es para:
Crédito Individual –Complete la información de aplicante.
Crédito mancomunado con la esposa/o como aplicante mancomunado –
complete la información de aplicante y co-aplicante.
Crédito mancomunado pero NO con la esposa/o como aplicante
mancomunado – complete la información de aplicante y co-aplicante.
Tenemos la intención de aplicar por un crédito mancomunado:
________________________________ _________________________________
Aplicante Firme Aquí
Co-Aplicante Firme Aquí

INFORMACIÓN IMPORTANTE SOBRE SU CUENTA
GUARDE ESTA INFORMACIÓN PARA SUS ARCHIVOS

ACUERDO DE CRÉDITO REVOLVENTE Y DECLARACIÓN INFORMATIVA

El distribuidor puede asignar todos los derechos bajo este Acuerdo y cualquier venta a crédito realizada
conforme a este Contrato (Como evidencia por un comprobante de venta a credito revolvente) a Aqua Finance,
Inc. (AFI) y a asignados de más allá de AFI.

*** No todas las ofertas contendrán tasas introductorias.
Si no está especificado de lo contrario en el Comprobante de Ventas
de Crédito Revolvente o Adenda de Promoción, entonces su APR es el
máximo no-estado introductorio APR en la tabla, a continuación.
Favor de desprender esta sección y entregarla al cliente.

Tasas y Cargos de Interés
Porcentaje De Interés
Tasas introductorias entre
y
que
Anual (APR) por
van desde los 6 meses hasta los 12 meses. ***
Compras
Tasas no introductorias entre
y

0% 9.9%,
5.9%

17.99%. Todas las tasas se basan en la

Penalidad De APR y
Cuándo Aplica**

Pago De Interés

promoción especificada o solvencia crediticia, y
laparticipación del distribuidor.
(Máximo APR Varía por Estado. Ver la tabla de
porcentaje adjunta para la tasa aplicable en su Estado*)

21%

(ver la tabla de porcentaje abajo para la
tasa aplicable en su Estado**)
Esta tasa de interés se podría aplicará a su cuenta
si realiza un pago tarde.
Cuánto tiempo dura la tasa de penalidad? : La
Tasa de Interés Penalizada puede permanecer en
efecto indefinidamente.
Los cargos financieros empiezan a partir de la fecha
de compra registrada en su cuenta, con excepción
de los Estados que requieren un período de gracia
donde en tal caso, la fecha de pago es por lo menos
25 días después del cierre del ciclo financiero
mensual y no se le cargará ningún interés si liquida
el balance total en la fecha de vencimiento.
Si llegara a cargársele interés, el cargo será no
menos de $0.50.
Para enterarse más sobre factores que debe
considerar cuando aplica o usa una tarjeta de
crédito, visite el sitio web de la Oficina Financiera
de la Protección al Consumidor al
http://www.consumerfinance.gov/learnmore.

Favor de desprender esta sección y entregarla al cliente.

Cargo Mínimo De
Interés
Consejos de la
Oficina Financiera
de la Protección al
Consumidor para
Tarjetas de Crédito
Cargos
Cargos de Penalidad Estos cargos varían por Estado.
Hasta $35 Ver el párrafo 11 del Acuerdo
• Por pago tarde
• Por cheque Devuelto Hasta $35 Ver el párrafo 12 del Acuerdo
Cómo Calcularemos Su Balance: Utilizamos un método llamado “Balance
Diario (incluyendo nuevas compras).” Ver su Acuerdo de Cuenta para más
detalles.
Pérdida de APR Introductorio: Podemos poner fin a su APR actual y aplicar
el APR de penalidad si usted realiza un pago tardío.
Derechos De Facturación: Para Información sobre sus derechos para disputar
transacciones y cómo ejercerlos se proveen en su Acuerdo de la Cuenta.
Esta información es precisa en la fecha de su aplicacion y compra inicial.
Si alguna información cambia se le notificará como mínimo 45 días antes
de algun cambio y cómo contactarnos en referencia a cualquier cambio.
Todos los terminos estan sujetos a cambiar.
* Máximo No-Introductorio Tasa de APR por Estado
Arkansas

17%
17.99%

El resto de los estados

** La tasa de penalidad de APR no es aplicable en los siguientes Estados: Arkansas, Colorado, Connecticut,
Delaware, Florida, Illinois, Kansas, Luisiana, Maine, Maryland, Massachusetts, Michigan, Minnesota, Missouri,
Nebraska, Carolina del Norte, Oklahoma, Pennsylvania, Rhode Island, Carolina del Sur, Texas y Wyoming.
1. GENERAL: Si su aplicación de crédito es aprobada y abrimos una cuenta de crédito revolvente
para usted, usted puede comprar bienes y servicios de hogar a crédito del distribuidor donde usted
abrió su cuenta. Las compras son conforme a un comprobante de venta de crédito revolvente y
usted está de acuerdo que todas las ventas están sujetas a los términos de este acuerdo.
2. PROMESA DE PAGO: Usted acepta pagar por todas las compras realizadas en su cuenta,
CARGOS FINANCIEROS, y otros cargos u honorarios aplicables bajo este Acuerdo en los que
haya incurrido usted o cualquier persona a la que usted haya autorizado o permitido utilizar su
cuenta. Si esta cuenta es una cuenta mancomunada, cada uno de los titulares de la cuenta acepta

pagar, y todos los titulares de la cuenta son responsables solidariamente por todas las cantidades
que se deban en la cuenta. Si su cuenta es referida a un abogado para colecciones quien no es
un empleado asalariado nuestro, usted acepta pagar cargos razonables de abogado y los costos
razonables de colecciones en la medida en que lo permita la ley de su estado. En los estados en los
que no se permitan los honorarios de abogados (IA, ME, OH y WI), usted acepta pagar los cargos
de abogados y costos legales que le imponga el tribunal.
3. LÍMITE DE CRÉDITO: Fijaremos un límite para su cuenta que podremos modificar en cualquier
momento por cualquier motivo que no esté prohibido por la ley. Usted no puede hacer compras si
causa que exceda a su límite de crédito a menos que nosotros permitamos esas compras. Usted se
compromete a pagar todos los montos por encima de su límite de crédito.
4. ESTADO DE CUENTA: Nosotros le enviaremos un estado de cuenta cada mes cuando su
balance de cuenta sea superior de $ 1.00 a la dirección que tengamos en nuestro registro. Dicho
estado decuenta mostrará las compras a crédito, cargos por mora, cargos por insufiecientes fondos
en la cuenta, saldo anterior, nuevo saldo, pagos recibidos, créditos, CARGOS FINANCIEROS, el
total del pago mínimo que se debe y la fecha de vencimiento del pago.
5. PAGO MÍNIMO MENSUAL: Todos los pagos, excepto los pagos impugnados, deben enviarse
o entregarse a la dirección del Centro de Proceso de Pagos que aparece en su estado de cuenta
mensual. Todos los pagos pueden ser realizados ya sea por transferencia de fondo electrónica,
cheque o giro postal. No envíe dinero en efectivo. Se podrán rechazar los pagos hechos en efectivo
u otros métodos de pago no conformes. Podremos aceptar pagos parciales o tardíos o cheques
marcados “pago total” o de otro endoso restrictivo, sin perder nuestro derecho a recibir el monto
total adeudado. Su estado de cuenta incluirá los requisitos que debe seguir para hacer los pagos.
Los pagos impugnados, incluidos los que indican que el pago constituye “pago total” de la cantidad
adeudada, debe enviarse por correo o entregarse en la dirección de Servicio al Cliente indicada
a continuación. Usted se compromete a pagar al menos el pago mínimo mensual total reflejado
en su estado de cuenta. Usted puede pagar más que el total del pago mínimo mensual y puede
pagar la cantidad total adeudada en cualquier momento. El Total del pago mínimo mensual vencido
mostrado en su estado de cuenta, será la suma del Pago Mínimo Mensual, más todas las cantidades
vencidas, cargos por mora y otros recargos. El Pago Mínimo Mensual se calcula al final del primer
mes en el que haga una compra, y se calculará cada mes en el que realiza una compra adicional.
Su pago mínimo mensual será entre el 2% y 5% del “cargo mensual más alto” saldo desde que su
cargo mensual fue cero ( o si usted participa en los planes de promoción especificado, sus pagos
mensuales mínimos serán entre 1% y 2% del “Cargo Mensual más Alto” ya que su saldo de cargo
mensual era cero), menos cualquier plan especial de pago como será demostrado en su estado de
cuenta, redondeado al próximo dólar más alto, o $ 15, lo que sea mayor, o a menos que el saldo de
su cuenta es menos de $ 15, en cuyo caso el pago mínimo mensual será igual al saldo de la cuenta.
Usted acepta que todo pago mediante cheque pueda ser retornado si (i) no está emitido en dólares
de los EE.UU. en fondos depositados en los EE.UU.; (ii) falta de una firma; (iii) dibujado y escrito
con diferentes cantidades numéricas; (iv) contiene un endoso restrictivo; (v) está posfechado; o (vi)
no se paga al presentarlo. Si Ud. no realiza un Pago Total Mínimo Mensual dentro de los siguientes
60 días de su vencimiento, nosotros podremos aplicar la Tasa de Interés Penalizada a su cuenta si
es permitido por el Estado donde reside. Le notificaremos con anticipación sobre la fecha en que
dicha penalización entrara en efecto. Esta Tasa de Interés penalizada puede permanecer en efecto
indefinidamente a no ser que Ud. realice seis Pagos Mínimos Totales Mensuales a su vencimiento,
a partir de la fecha en que la penalización tomo efecto en su cuenta.
6. TRANSFERENCIA ELECTRONICO DE FONDOS: Cuando usted proporciona un cheque,
nos está autorizando hacer uno u otro usar información de su cheque para hacer transferencia
electrónica de fondos de su cuenta por una vez o para procesar la transacción como cheque.
Cuando nosotros usamos su cheque para hacer una transferencia electrónica de fondos, los fondos
pueden ser retirados de su cuenta el mismo día que nosotros recibimos su cheque y usted tal vez no
reciba de regreso el cheque de su institución financiera. Si no hay fondos suficientes en su cuenta
bancaria usted nos autoriza a cobrar una cuota de NSF como se indica a continuación y colectar esa
cantidad a través de una transferencia electrónica de fondos de su cuenta.
7. PREPAGO: Podrá pagar todo el saldo de su cuenta en cualquier momento sin penalidad alguna.
Si no paga el saldo total por completo, deberá hacer un pago mínimo cada mes para la fecha de
vencimiento que aparece en su estado de cuenta. Bajo la ley federal, no estamos obligados a
reembolsar cantidades menores a $1.00.
8. CARGOS FINANCIEROS: LOS CARGOS FINANCIEROS empiezan en la fecha en que se
registra una compra a su cuenta y se devengan mientras su cuenta presente un saldo, excepto
en los estados en los que hay un periodo de gracia obligatorio. EL CARGO FINANCIERO es
calculados aplicando una tasa periódica diaria entre 0% y .02712% (correspondiendo a un APR
de 9.9%) para una tasa introductoria, o entre 0.1616% (correspondiendo a una APR de 5.9%) y
0.4929% (correspondiendo a una APR de 17.99%) para un balance diario que no tenga una APR
introductoria. El saldo diario se calcula tomando el saldo inicial de la cuenta cada día, agregando
otras compras nuevas y restando cualquier interés no pagado, u otros cargos financieros y cualquier
pago o créditos aplicables. El CARGO FINANCIERO se calculan: (i) tomando cada saldo diario, (ii)
multiplicándolo por la tasa periódica diaria aplicable, (iii) sumando junto las cantidades resultantes
por cada día del ciclo de facturación. El total del CARGO FINANCIERO periódico para el ciclo de
facturación es la suma del CARGO FINANCIERO periódico para cada tipo de compra redondeado
al siguiente centavo más alto. Cualquier saldo diario menor que cero será tratado como cero. Un
CARGO FINANCIERO mínimo de no menos de $ 0.50 es agregado a su cuenta en cualquier ciclo
de facturación en que su cuenta está sujeta a un CARGO FINANCIERO, excepto en los estados
en los que lo prohíba la ley. El período de gracia es de 25 días en Luisiana, Maine, Maryland,
Massachusetts, Mississippi, Carolina del Norte y Virginia y 30 días en Nebraska y Vermont en nuevas
compras donde el balance de su cuenta es de $0 ó Ud. ya liquidó totalmente su balance previo al
final del ciclo de facturación.
9. INCUMPLIMIENTO: Usted está en morosidad si: (a) Usted fallo en hacer un pago requerido
a su vencimiento en dos ocasiones en un periodo cualquiera de 12 meses; (b) si used falla en
observar o cumplir alguna de las cláusulas u obligaciones en este Acuerdo si el incumplimiento
perjudica la condicion, valor o proteccion de nuestro derecho en cualquier colateral, o materialmente
perjudica su habilidad de pagar cualquier cantidade en su estado de cuenta a su vencimiento. Usted
recibirá un Aviso del Derecho a Redimir en los siguientes estados: Colorado, Iowa, Kansas, Maine,
Massachusetts, Missouri, Nebraska, Pennsylvania, y Wisconsin. Si falla en redimir en el periodo
indicado en su aviso o en 30 días si vive en un estado donde no hay requisito de aviso, podriamos
adelantar su saldo.
10. PLANES ESPECIALES DE PROMOCIÓN DE CRÉDITO: De vez en cuando podremos ofrecer
planes especiales de promoción de crédito a los que usted tendra opcion en participar.
11. CARGO POR MORA: Si su pago está más de 10 días tarde (15 en ME, MA o SD y 30 días en
NC), podremos cargarle un cargo por mora hasta la cantidad abajo indicada de acuerdo a su estado
de residencia. El cargo por mora será agregado al balance de su cuenta. AFI-500-RCA/SP 7-1-2016 240387

*
1
d
d
d
u
p
d

*

1
d
C
y
c
D
1
la
a
4
n
1
d
o
p
o
in
n
D
d
e
a
fa
ú
1
c
d
s
a
0
r
1
d
e
in
in
y
1
in
e
1
d
2
c
e
p

2

A
u
e
e
r
s
c

s
s
s
s
s

er
si
e

u
o
s
el

e
a
a,
o
s
o
s.
d
a
o
e
o
s
er
l.
u
s
o
e
e
a.
s
o
i)
s
si
e
o
o,

e,
a
e.
s
o
a
a

a.
e
a

e
o
s
R
y
R
o
er
i)
s
e
o
n
o
s
d,
s
al

o
n
o
e
d
e,
o
s

er

n
o

KS & MO si el pago pendiente es menor que $25
$5
AK, AR, CA, FL, KS, MO, MT, NJ, NC, OH, RI, SD, TN
$10
CO, IN, IA, MS, NV, NH, NY, ND, OR, VT, WA, WI
$15
GA
$25
MN - $7.80 máximo
5% del pago pendiente
KY & WY -$10 mínimo;
5% del pago pendiente;
$35 máximo*
AL, ID & MI -$15 mínimo;
HI, NE,VA
UT
5% del pago pendiente;
$30 máximo*
OK ($5 mínimo)
5% del pago pendiente;
$20 máximo
SC, TX, D.C.
5% del pago pendiente;
$15 máximo
AZ, CT, IL, LA, MD, ME, PA
5% del pago pendiente;
$10 máximo
NM
5% del pago pendiente;
$5 máximo
MA
10% del pago pendiente; $10 máximo
*(Un máximo de $25 por primera falta en más de 6 meses.)
12. PAGO DEVUELTO / TARIFA POR INSUFICIENTE FONDOS: Si algún instrumento o método
de pago es deshonrado por su Banco o girador, Ud. está de acuerdo en pagar una cuota de insuficiencia
de fondos por la cantidad abajo indicada, de acuerdo a su estado de residencia. No cuota por insuficiencia
de fondos será cargada si su Estado de residencia es DE, MD, NE o WY. Si es requerido por su estado,
usted recibirá un aviso con instrucciones sobre el servicio NSF o cargos de colección, y si usted falla en
pagar la cuota se lo añadiremos a su saldo de cuenta. No estamos obligados a presentar los instrumentos
de pago más de una vez al banco para el pago. Esta cuota se agregara a su saldo de cuenta.
MA, ME, AZ (mayor de $ 10 o comisión bancaria)
CA, MS, MO
CT, D.C., ID, IA, NJ, NY, OH, PA, UT, VT
AR, CO, FL, IL, IN, KY, LA, MI, MN, NV, NH, NM, NC, OK, RI, TX, WI
AL, AK, GA, HI, KS, MT, SC, SD, TN
ND, OR, VA, WA
*(Un máximo de $25 por primera falta en más de 6 meses.)

$10
$15
$20
$25
$30*
$35*

13. INFORMACIÓN DE CUENTA: Nos autoriza a proporcionar información sobre su cuenta a agencias
de informes de crédito y cualquier otra parte legalmente autorizada para recibir dicha información.
Cuando se lo solicitemos, usted acepta proporcionarnos puntualmente información financiera correcta
y actualizada asi como informacion de empleo. Usted acepta notificarnos puntualmente de algun
cambio de nombre, dirección y números de teléfono. Donde esté permitido por la ley, usted autoriza al
Departamento de Moto Vehículos a divulgar su dirección si es necesario para localizarle.
14. CAMBIO EN TERMINOS: Podremos cambiar los terminos de este Acuerdo, como permitido por
la ley, en cualquier momento. Se le notificarán los cambios en conformidad a la ley estatal y federal
aplicable, pero en el caso de que su estado no especifique un periodo de tiempo, se le notificara al menos
45 dias por anticipado de dichos cambios, y se le enviará dicho aviso a la dirección vigente mostrada en
nuestro registro en su cuenta. Se contarán los días a partir de la fecha en que enviemos la notificación.
15. INVESTIGACIÓN DE CRÉDITO: Usted esta de acuerdo que podamos investigar su situación
de crédito, de empleo y estado financiero. Nos autoriza a obtener un informe de crédito y cualquier
otra información sobre su solvencia en conexión con el procesamiento de su aplicacion de crédito, y
posteriormente en conexion con cualquier extension de credito, solicitud de incremento del límite de crédito,
o cualquir renovación o actualización de su cuenta, o tomar acciones de colección en la cuenta o para
investigar disputas respecto a la cuenta. Por su solicitud, se le informará si se ordenaron los informes, y los
nombres de las agencias de crédito que proporcionaron los informes. Usted autorizara al Departamento de
Defensa y sus diversos departamentos y comandos para comprobar su número de seguro social u otros
datos de identificación y a revelar su domicilio privado al titular autorizado de este Acuerdo, a efectos de
ejecutar o enforzar los terminos de este Acuerdo. Usted autoriza a cualquier empleador pasado o presente
a confirmar el empleo o a comunicarse con nosotros con respecto a su endeudamiento con nosotros si usted
falla en cumplir los términos y condiciones de este Acuerdo. Nosotros usamos información proporcionada
únicamente en conexion con el enforzamiento o ejecucionamiento de los términos de este Acuerdo.
16. CANCELACIÓN DE LA CUENTA: Podremos cancelar su cuenta en cualquier momento por
cualquier motivo sujeto a los requisitos de la ley aplicable. Los saldos pendientes continuarán
devengando CARGOS FINANCIEROS hasta que se hayan pagado en su totalidad, y quedarán
sujetos a todos los términos y condiciones de este Acuerdo. Puede cancelar su cuenta escribiendo
a nuestro proveedor de servicios de cuentas Aqua Finance, Inc., P.O. Box 844, Wausau, WI 544020844. Su aviso será efectivo a partir del momento de recivirse. Si cancela su Cuenta, seguirá siendo
responsable por todas las cantidades que se deban conforme a los terminos de este Acuerdo.
17. CESIÓN: Este Acuerdo no es efectivo hasta que su aplicación sea aprobada por AFI. Tenemos el
derecho de asignar algún o todos nuestros derechos bajo este Acuerdo a cualquier cesionario de nuestra
elección. Usted no podrá asignar este Acuerdo o ninguno de sus derechos bajo el mismo y cualquier
intento de hacer tal asigna miento será nulo e inválido. Entiende que el Distribuidor y AFI son entidades
independientes y no empleados o agentes del uno al otro. Este Acuerdo vincula legalmente los interesados
y sus respectivos herederos, representantes, ejecutores, administradores, sucesores y cesionarios.
18. DIVISIBILIDAD: Si alguna de las provisiones de este Acuerdo fuera considerado nula o
inaplicable bajo alguna ley, regulacion o reglamento, todas las demás provisiones continuarán en
efecto y deberán cumplirse.
19. NO-EXONERACIÓN: No perderemos ninguno de nuestros derechos bajo este Acuerdo si nos
demoramos al emprender acciones por cualquier motivo.
20. REPRESENTACION: Usted jura que toda la información proporcionada en su aplicación de
crédito y toda la información en cada uno de los comprobantes de venta a crédito revolvente
es y será verdadera, correcta y exacta. Cualquier informacion falsa, incorrecta o errónea que
proporcione conscientemente será una tergiversación deliberada.
21. AVISO DE LEYES ESTATALES PARA RESIDENTES EN:

AVISO DEL ESTADO DE CALIFORNIA: Los aplicantes podrán 1)
utilizar la cuenta de crédito hasta el límite de crédito después de que
el crédito haya sido aprobado; 2) ser responsables por las cantidades
extendidas bajo el plan a cualquier aplicante mancomunado. Un
reporte de crédito negativo reflejando en su historia de crédito podrá
ser sometido a una agencia de informe de crédito si usted falla en
cumplir las obligaciones de los términos de su crédito.

RESIDENTES DE COLORADO: Advertencia: los terminos de esta cuenta de carga revolvente
pueden cambiarse, con o sin autorización por el acuerdo, en conformidad con las reglas del UCCC
de Colorado y otras leyes aplicables.
DELAWARE: Cargos de servicios no en exceso a esos permitido por la ley se cargará sobre los
saldos pendientes de mes a mes.
DISTRICT OF COLUMBIA: El vendedor certifica que la información contenida en el contrato
cumple con el Distrito de Columbia Regulación Municipal, Título 16, Capítulo 1.
ILLINOIS: No aplicante sera negado una tarjeta de crédito por motivos de raza, color, religión, origen
de nacionalidad, ascendencia, edad (entre 40 y 70), sexo, estado civil, impedimento físico o mental
no relacionado a la habilidad a pagar o descargo desfavorable del servicio militar. El aplicante podrá
pedir el motivo del rechazo de su aplicacion para una tarjeta de crédito. No se necesita solicitar
de nuevo una tarjeta de crédito únicamente por cambio de estado civil a menos que el cambio de
estado civil haya causado un deterioro en la situación financiera de la persona. Una persona puede
ser titular de una tarjeta de crédito en cualquier nombre permitido por la ley que la persona use
regularmente y es generalmente conocido por, siempre que no haya intención de fraude.
MAINE: Podremos solicitar un informe de crédito para el consumidor en conexion con su
aplicacion de crédito. Puede consultar si fue obtenido un informe de crédito para el consumidor
por nosotros y, le indicaremos el nombre y dirección de la agencia de informes de crédito para el
consumidor. Los cargos en los que incurra por el uso de su tarjeta se deben y son pagaderos a la
recepción de su estado de cuenta mensual.
MARYLAND: Se harán cargos financieros en cantidades o a tasas no en exceso a esos permitidos
por la ley. Podrá pagar el saldo total en cualquier momento sin incurrir cargos adicionales por pago
anticipado.

2

A
P
W
o
8

2

S
E
e
Q
S

E

NEW HAMPSHIRE: Abogado del Consumidor o Consumidor
pueden presentar una queja con el comisionado bancario de New
Hampshire.
VERMONT: Podremos obtener sus reportes de crédito en cualquier momento, por cualquier
proposito legítimo asociado con la cuenta o la aplicación o solicitud para una cuenta, incluyendo
pero sin limitarse a revisiones, modificaciones, renovaciones y cobros en su cuenta. En su
solicitud, le informaremos si dicho reporte fue ordenado. Si fue, le daremos el nombre y dirección
de la agencia de informe de crédito para el consumidor que proporciona el reporte.
OHIO: Las leyes de Ohio en contra de la discriminación requiere que los acreedores deben hacer
crédito igualmente disponible a todos los clientes solventes y que las agencias de informe de
crédito mantengan historiales de crédito separado sobre individuos a su solicitud. La Comisión de
Derechos Civiles de Ohio administra estas leyes.
TEXAS: Para contactar Aqua Finance, Inc. sobre esta cuenta llame al 715-848-5425. Este contrato
está sujeto en su totalidad o en parte a la ley de Texas, la cuales es enforzada por el Comisionado
de Crédito al Consumidor, 2601 N. Lamar Blvd., Austin, Texas 78705. Teléfono 512-936-7600.
Contacte el comisionado relativo a cualquier pregunta o queja.
22. ACUERDO DE SEGURIDAD: Nos concede un interés de seguridad sobre el monto de la
compra bajo el Código Comercial Uniforme en cada hogar por compra de bien a cuenta a la
medida en que esté permitido por la ley. A la medida en que esté permitido por la ley, pagará todas
las tarifas oficiales y impuestos, y bajo solicitud, tomará cualquier acción razonable solicitada
por nosotros para preservar el colateral o para establecer, determinar la prioridad de, perfecto,
continuar la perfeccion, terminar o enforzar nuestro interés en ella o derechos bajo este acuerdo.
Si no hace los pagos como acordado, este interés de seguridad nos permitirá tomar acciones en
conformidad con las leyes estatales que goviernan el cumplimiento de los intereses de seguridad
en el colateral. Ademas esta de acuerdo en mantener los bienes instalados en la dirección de
la aplicación de crédito y no removerlos o materialmente ajustarlos sin nuestro consentimiento
por escrito. Podrá perder los bienes adquiridos si no cumple sus obligaciones bajo este acuerdo.
23. AVISO:

D

D
p
p

Q

C

1
h
e
2
e
M

CUALQUIER TITULAR DE ESTE CONTRATO DE CRÉDITO AL CONSUMIDOR
ESTÁ SUJETO A TODOS LOS RECLAMOS Y DEFENSAS QUE EL DEUDOR
PODRÍA IMPONER ENCONTRA DEL VENDEDOR DE BIENES O SERVICIOS
OBTENIDOS CONFORME A ESTE ACUERDO O CON LOS BENEFICIOS
DEL MISMO. LA RECUPERACION DEL DEUDOR BAJO ESTE ACUERDO
NO PODRÁ EXCEDER EL MONTO DE CRÉDITO PENDIENTE.
Residentes de Arizona – Usted debe darnos aviso de su reclamo o defensa por escrito por
medio de una carta certificada entre los 90 días de haber recibido cualquier bienes o usted puede
renunciar a los derechos de compensaciones o defensas en contra del cesionario si el cesionario
le provee aviso de sus derechos y usted falla en ejercitar esos derechos de acuerdo a los términos
del aviso.
Residentes de Iowa Usted debera dar aviso al cesionario dentro de los 30 días de la asignacio
para imponer reclamos y defensas en contra el cesionario.
Residentes de Oklahoma y South Dakota - Usted renuncia al derecho de poner un reclamo o
defensa en contra del cesionario si el cesionario le provee aviso de sus derechos y usted falla en
ejercitar esos derechos en conformidad a los términos del aviso.
Residentes de Wisconsin - Usted renuncia al derecho de poner un reclamo o defensa en
contra del cesionario después de 12 meses si el cesionario le provee aviso de sus derechos para
hacerlo y usted falla en ejercitar esos derechos en conformidad con los términos del aviso de
asignación. Esta renuncia es en conformidad con la sección 422.407 (4) del Acta del Consumidor
de Wisconsin.
Residentes de Wyoming- Usted renuncia al derecho de poner un reclamo o defensa en contra
del cesionario después de los 45 de la asignación si el cesionario le provee aviso de sus derechos
y usted falla en ejercitar esos derechos en conformidad con los términos del aviso.

AFI-500-RCA/SP 7-1-2016 240387

U

S
i
s
t
c
a
S
p
S
S
d
p
a

24. SERVICIO AL CONSUMIDOR:

Dirija todas las preguntas acerca de su cuenta a:
Aqua Finance, Inc.
P.O. Box 844
Wausau, WI 54402-0844
o llame al Servicio de Atención al Cliente al número de teléfono
800-234-3663.

1. La compra deberá haberse realizado en su Estado de residencia o dentro
100 millas de su presente dirección postal, y el costo de la compra deberá ser de
más de $50. (Nota: ninguno de lo anterior será necesario si su compra la realizó
basada en un anuncio que le hayamos enviado a usted por correo o que seamos
dueños de la compañía que le vendió los bienes y servicios).
2. Ud. deberá haber realizado la compra con su tarjeta de crédito. Compras
25. AVISO SOBRE DERECHOS DE FACTURACIÓN:
realizadas en efectivo con dinero de caja automática, ATM, o con cheque de
Sus Derechos de Facturación: Guarde este Documento para Uso Futuro
acceso a su tarjeta de crédito NO califican.
Este aviso le indica sobre sus derechos y nuestras responsabilidades bajo 3. Deberá no todavía haber liquidado totalmente la compra.
el Acta de Crédito de Facturación Justa.
Si todo lo anterior coincide y aún así Ud. no está satisfecho con la Compra,
contáctenos por escrito a:
Qué Hacer Si Encuentra Un Error En Su Estado De Cuenta
Aqua Finance, Inc.
Si Ud. piensa que existe un error en su estado de cuenta, escríbanos a:
ATTN:
Customer Billing
Aqua Finance, Inc.
One
Corporate
Drive, Suite 300
ATTN: Customer Billing
Wausau,
WI
54401
One Corporate Drive, Suite 300
Wausau, WI 54401
En su carta, denos la siguiente información:
• Información de cuenta: Su nombre y número de cuenta.
• Cantidad: El monto en dólares del posible error.
• Descripción del problema: Si Ud. piensa que hay un error en su estado
de cuenta, describa lo que usted cree que esta incorrecto y por qué
cree que es una equivocación.
Deberá contactarnos:
• Dentro de los primeros 60 días después de que el error apareció en
su estado de cuenta.
• Por lo menos 3 días hábiles antes que un pago automático es
programado si desea detener el pago por la cantidad que considere
incorrecta.
Deberá notificarnos por escrito de cualquier error potencial. Nos puede llamar,
pero si lo hace, no estamos exigidos a investigar cualquier error potencial y Ud.
podría tener que pagar la cantidad en cuestión.
Qué pasara después que recibamos su carta
Cuando recibimos su carta, debemos de hacer dos cosas:

Mientras llevamos a cabo la investigación, las mismas reglas aplican a la
cantidad reclamada como se menciona antes. Una vez que terminemos nuestra
investigación, le informaremos nuestra decisión.
A este punto, si consideramos que usted debe una cantidad y decide no liquidarla,
lo podremos reportar como moroso.
Nota para todos los compradores: Los Cargos Financieros podrán ser
hechos en cantidades o tasas de interés no en exceso de esos permitidos
por la ley. Usted tiene el derecho de pagar por adelantado la cantidad total
del adeudo.

AVISO AL COMPRADOR: (1) NO FIRME NINGUNA PARTE DEL
ACUERDO DE CREDITO REVOLVENTE ANTES DE HABERLO
LEIDO O SI CONTIENE ESPACIOS EN BLANCO. (2) USTED ESTA
AUTORIZADO DE RECIBIR UNA COPIA COMPLETAMENTE
LLENADA DE CUALQUIER ACUERDO CUANDO LO HAYA
FIRMADO. (3) UN CARGO FINANCIERO SERA COMPUTADO
SOBRE EL BALANCE PENDIENTE EN CADA PERIODO DE SU
FACTURA EN CONFORMIDAD CON LAS TARIFAS DE ARRIBA.
(4) USTED PUEDE LIQUIDAR EL TOTAL DEL BALANCE NO
PAGADO EN CUALQUIER MOMENTO.

1. Dentro de los 30 días de haber recibido su carta, debemos informarle que
hemos recibido su carta. También le haremos saber si ya hemos corregido el
error.
2. Dentro de los 90 días de haber recibido su carta, deberemos ya sea corregir
Nombre del Distribuidor: ____________________________________________
el error o explicarle por qué creemos que su estado de cuenta está correcto.
Mientras investigamos si existe un error o no:
Dirección: ________________________________________________________
• No podremos tratar de colectar la cantidad por pagar ni reportarlo
como delincuente sobre esa cantidad.
• El cargo por pagar permanecerá en su estado de cuenta y podríamos
continuar cargándole interés sobre esa cantidad.
• Aunque Ud. no tenga que pagar la cantidad pendiente a pagar, usted
es responsable por el balance restante.
• Nosotros podremos aplicar cualquier cantidad no liquidada en contra
AFI-500-RCA/SP 7-1-2016 240387
su límite de crédito.
Una vez que finalizamos nuestra investigación, una de dos cosas sucederá:
• Si nosotros cometimos un error: Ud. no tendrá que pagar la cantidad en
cuestión o ningún interés u otros cargos relacionados con esa cantidad.
• Si no hubo error de nuestra parte: Ud. deberá pagar la cantidad en cuestión,
junto con el interés y demás cargos aplicables. Le enviaremos un estado de
cuenta con la cantidad que debe y la fecha de pago. Podríamos reportarlo
como moroso si Ud. no liquida la cantidad que consideremos en deuda.
Si Ud. recibe nuestra explicación, pero aún así piensa que su estado de cuenta está
incorrecto, nos puede enviar una carta dentro de 10 días, informándonos que aún
se rehúsa a pagar. Si lo hace, no podremos reportarlo como moroso sin informar
también que usted está cuestionando su factura. Debemos decirle el nombre de
cualquiera a quien le reportamos su deuda como morosa, y debemos dejarle saber
a esas organizaciones cuando el asunto haya sido resuelto entre nosotros.
Si no seguimos los reglamentos antes mencionados, no podremos colectar los
primeros $50 de la cantidad que Ud. cuestionó, aún si su factura estaba correcta.
Sus Derechos Si Usted No Está Satisfecho Con Las Compras De Su Tarjeta De Crédito
Si Ud. no está satisfecho con los bienes o servicios que compro con su tarjeta
de crédito y ha intentado, de buena fe, corregir el problema con el vendedor,
podría tener el derecho a no pagar el balance restante de la compra. Para llevar
a cabo este derecho, todo a continuación deberá ser verdadero:
AFI-500-RCA/SP 7-1-2016 240387

